                                 EVALUATION




 BUREAU OF LAND MANAGEMENT’S
 WILDLAND FIRE PROGRAM




Report No.: C-EV-BLM-0003-2012   September 2014
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 3
   Objective ............................................................................................................. 3
   Background ......................................................................................................... 3

Findings................................................................................................................... 5
   Fire Codes ........................................................................................................... 5
   Purchase Cards .................................................................................................... 8
   Property ............................................................................................................... 9
   Payroll ............................................................................................................... 10

Conclusion and Recommendations ....................................................................... 12
   Conclusion......................................................................................................... 12
   Recommendations Summary............................................................................. 12

Appendix 1: Scope and Methodology................................................................... 18
   Scope ................................................................................................................. 18
   Methodology ..................................................................................................... 18

Appendix 2: Sites Visited and Contacted ............................................................. 19

Appendix 3: Schedule of Monetary Impact .......................................................... 20

Appendix 4: Boise District Office ........................................................................ 21
   Property ............................................................................................................. 21
   Charge Cards ..................................................................................................... 22
   Coding ............................................................................................................... 23

Appendix 5: Carson City District Office .............................................................. 25
   Property ............................................................................................................. 25
   Charge Cards ..................................................................................................... 26
   Payroll ............................................................................................................... 27
   Coding ............................................................................................................... 28

Appendix 6: Idaho Falls District Office................................................................ 29
   Property ............................................................................................................. 29
   Charge Cards ..................................................................................................... 29
   Payroll ............................................................................................................... 30
   Coding ............................................................................................................... 31

Appendix 7: Southern Nevada District Office ...................................................... 32
   Property ............................................................................................................. 32
   Charge Cards ..................................................................................................... 33
   Payroll ............................................................................................................... 33
   Coding ............................................................................................................... 34

Appendix 8: BLM Response................................................................................. 35

Appendix 9: Status of Recommendations ............................................................. 41
Results in Brief
The Bureau of Land Management (BLM) administers over 245 million surface
acres of public land, more than any other Federal agency. This acreage makes
BLM a leader in our Nation’s wildland fire management efforts. While the
program includes a diverse number of activities, fire suppression operations and
safety continue to be the core of BLM’s overall fire program. The program’s 2013
allotment of more than $250 million demonstrates the fiscal scale of its fire
management responsibilities. Without compromising public safety, these dollars
must be managed prudently.

The significant threat posed by wildland fires to lives and property, particularly in
the western United States, has been clearly documented by researchers, media
outlets, and others as wildfires have burned more than 59 million acres during the
past decade. According to the National Interagency Fire Center, 2012 saw one of
the worst fire seasons in decades, with nearly 70,000 wildfires burning more than
9 million acres. The National Association of State Foresters cites more than
72,000 communities at risk from wildfire.

In the face of such large-scale challenges, we found that the BLM wildland fire
program is vulnerable to misuse of funds and potential fraud due to inadequate
internal controls and inconsistent implementation of existing controls. The issues
we identify in this report undermine BLM’s ability to—

   •   reliably determine the actual cost of suppression activities on individual
       fires, leaving BLM at a disadvantage when attempting to recoup the full
       costs of a fire in a case of trespass or arson;
   •   fully account for purchases of equipment, supplies, and services, leaving
       the purchase card program susceptible to duplicative purchases, improper
       use, and fraud;
   •   readily locate critical or highly pilferable property items, exposing the
       program to potential theft of equipment; and
   •   thoroughly validate the accuracy of payroll, leaving the program
       susceptible to fraud, waste, and mismanagement if inaccurate hours were
       to be claimed.

In 2012, BLM’s then Deputy Director identified these same areas for immediate
attention so that wildland fire responsiveness and stewardship of appropriated
funds could be improved. Because national standards require funding allocations
to be used for specifically identified activities, the Deputy Director instructed
BLM’s State offices to focus on stewardship of fire suppression funds to ensure
their availability for fighting fires.

Ineffective controls have resulted in improper charges to suppression accounts.
While we are unable to project the full extent of improper charges, BLM officials


                                                                                     1
are taking steps to strengthen their monitoring of program spending and to address
many of the control deficiencies we identified.




                                                                                2
Introduction
Objective
Our objective was to determine if costs incurred by the Bureau of Land
Management’s (BLM) wildland fire program comply with applicable laws,
regulations, policies, and procedures; and to evaluate the effectiveness of the
program’s internal controls over fire suppression and preparedness funding, and
the safeguarding of assets and resources (see Appendix 1).

Background
BLM is responsible for sustaining the health, diversity, and productivity of
America’s public lands for the use and enjoyment of present and future
generations. It administers more than 245 million acres, most of them located in
12 Western states subject to dry conditions and thus susceptible to fire, including
Alaska.

Its public land responsibilities make BLM a leader in our nation’s wildland fire
management efforts. Its fire program is overseen by the Fire and Aviation
Directorate (FAD), an organization dedicated to providing national direction,
leadership, policy, standards, and operational oversight. FAD is headquartered at
the National Interagency Fire Center (NIFC) in Boise, ID, where it works with
seven other Federal agencies to manage wildland fires in the United States. FAD
works with BLM State and field offices to safely and cost-effectively manage the
fire and aviation programs. BLM’s national office provides leadership and
oversight, develops policy and procedures, and budgets for the fire and aviation
programs. State offices coordinate policies and interagency activities within their
States, while field offices oversee fire management and aviation activities.

The program undertakes a broad range of activities to protect the public, the
natural landscape, wildlife habitat, and recreational areas for multiple uses. While
the program includes a diverse number of activities, fire preparation and
suppression operations represent its core mission. BLM’s fire program continues
to place highly trained and skilled professional firefighters and managers in the
field to meet the challenges posed by wildfire. It attempts to keep pace with
wildland fires as they pose growing threats to lives and property on BLM and
other lands. In 2012, the NIFC identified nearly 70,000 wildfires that burned more
than 9 million acres, making 2012 one of the worst fire seasons on record.
The National Association of State Foresters also has cited more than 72,000
communities at risk from wildfire.

Fire program preparedness dollars cover resource needs that are not directly
associated with a given fire incident. Preparedness is a part of the firefighting
process that includes developing plans at the State, regional, and national levels;
predicting fire activity; hiring, training, and deploying wildland firefighters;
evaluating performance; and improving overall operations.


                                                                                      3
Suppression funding, on the other hand, pays for resources needed for specific fire
incidents. It is used by firefighters mobilized directly to incidents, as authorized
through such tools as resource orders, dispatch plans, and response plans.
Suppression operations include a range of actions taken to manage wildland fires
and may include expenses incurred by fireline, command, and support personnel,
as well as costs for temporary emergency firefighter personnel, aircraft flight
operations, aircraft ramp support, logistical services, supplies, equipment,
contracts for goods and services, administrative support directly associated with
incidents, and immediate measures to repair damage and mitigate hazards as a
result of fire suppression activities.

Short-term severity funding, a type of suppression funding, may be used to
mobilize resources for needs expected to last less than 1 week. These funds may
cover the added expense of having fire crews ready for extreme weather
conditions (e.g., activities associated with high winds and lightning) and special
events such as off-road rallies or recreational gatherings. According to NIFC’s
Interagency Standards for Fire and Fire Aviation Operations (January 2012), FAD
chiefs and State directors have authority to expend $300,000 in short-term
severity funding per fiscal year.

To help ensure the appropriate use of funds by BLM staff, the Bureau’s then
Deputy Director identified, in 2012, several areas for improvement. Specifically,
he called attention to the following:

   •   Appropriation purpose: Suppression funding should not be used for
       normal preparedness activities, or to purchase equipment and supplies to
       outfit crews and other firefighting assets.
   •   Timekeeping: Firefighters and fire managers should charge their time to a
       specific fire code only when they are working on that particular fire.
   •   Procurement: Managers and supervisors must ensure that fire equipment
       and supply procurement is cost effective, meets mission objectives, and
       complies with agency policy.
   •   Personal property management: Employees must ensure that U.S.
       Government property is accounted for according to established property
       management policy.

Further, the Deputy Director requested that fire officials focus not only on
protecting human life, property, and natural and cultural resources, but also on the
mindful use of wildland fire appropriations, particularly suppression funds.




                                                                                    4
Findings
The BLM wildland fire program is vulnerable to misuse of funding, both in the
ways dollars are spent and in the program’s inability to account for all fire
purchases. Overall, we determined that the program does not have adequate
internal controls, nor does it consistently apply or effectively monitor the controls
it already has in place.

In sampling transactions from the four BLM districts we visited (see Appendices
2 through 7), we found misuse of fire codes and special use codes, improperly
charged and inadequately documented payroll costs and purchase card costs, and
inadequately tracked property. These internal control problems contribute to an
environment in which improper use of funds and mismanagement of resources are
overlooked even though they are within BLM’s control and could contribute to
more effective use of fire suppression dollars.

Internal controls over BLM’s wildland fire program have left it unable to—

 •   reliably determine the cost of individual fires;
 •   fully account for purchase card purchases;
 •   readily locate either critical or highly pilferable property items; and
 •   thoroughly validate the accuracy of its payroll.

BLM’s fire program needs to focus on reducing internal control vulnerabilities
related to fire preparedness and suppression that can lead to improper, wasteful
spending as well as an increased potential for fraud. While we do not estimate the
full extent of the improperly recorded charges across the program, we point out
several instances of improper accounting that illustrate the need to improve
accounting through stronger controls and better monitoring and review.

We believe one of the factors contributing to a compromised control environment
is the view that fire operations and business management are separate spheres of
activity. This perception creates little incentive to maintain accurate records.
While public and firefighter safety are paramount, we believe business
management can be more effective if viewed as an integral part of program
operations. BLM is aware of these internal control problems and has made some
changes. Continuing improvement is needed. We address specific control
deficiencies below.

Fire Codes
Based on the transactions we reviewed, we believe that the program’s
management of data leaves the program vulnerable to error and potential fraud.
BLM uses multiple data systems, including Fire Code, to manage its wildland fire
program. Fire dispatch centers use the Fire Code system to generate unique four-
digit alphanumeric codes to identify fire suppression costs charged to specific


                                                                                    5
fires. Every employee working on a particular fire charges its costs to a unique
code associated with that incident. These fire codes reflect authority to expend
suppression monies. In an average year, thousands of fire codes may be created.
To support multiple fires occurring simultaneously and to help State offices and
field units manage their fire expenditures, BLM also uses generic suppression
project codes to temporarily capture fire costs. Costs under these “special use”
codes are later reallocated to the appropriate fire code.

We found that internal controls related to how BLM associates costs with specific
fires were inadequate to ensure that money was spent according to its allocated
purpose. In addition, fire codes are open for personnel at field agencies across the
country to apply charges. This broad access leaves the data prone to incorrect (and
potentially fraudulent) coding. For example, 26 individuals erroneously charged
their time to a single-tree fire in the Carson City (Nevada) District, resulting in an
overstatement of the cost of the fire-fighting effort by almost 95 percent. In
addition, inaccurate coding for charges pertaining to a fire in Texas caused these
charges to be attributed to a fire in Idaho. In the Carson City District, we also
identified four instances of fire code discrepancies, amounting to approximately
$7,900. This miscoding occurred because of data entry errors not identified by
follow-up checking.

Inaccurate coding may leave BLM unable to recoup the total cost of a fire in a
trespass or arson case. BLM seeks restitution from individuals or companies in
cases of wildland fire caused by human activity, whether by arson or accident.
These costs can run into the tens of thousands of dollars. For example, an
individual who pled guilty to starting the Ruby Canyon Fire in Colorado was
ordered to pay more than $14,000 in restitution to BLM. In addition, BLM sought
more than $280,000 in restitution from two trespassers at the Iosepa Project Area
who were found responsible for starting the Horseshoe Fire in Utah. If BLM does
not have complete and properly documented cost records associated with a given
fire, however, it is at a disadvantage in restitution proceedings and negotiations,
potentially recouping far less than full cost.

Further, fire codes are left open for months after a fire has been declared
extinguished. This leaves the accurate cost of a fire unknown and extends
vulnerability to misuse. According to program officials, codes primarily are left
open due to the timing of payments for fire-related aviation activities. Contracts
typically state that aviation vendors should bill every 2 weeks, but program
officials acknowledge that this does not happen.

While fire codes can be closed and then reactivated after a period of inactivity,
BLM’s budget office did not believe this internal control was worth the time
required to conduct such a labor-intensive process. The budget office did
acknowledge a problem with leaving the fire codes open for extended periods,
however. Office staff indicate that they have started reviewing fire codes on a




                                                                                     6
yearly basis and inactivating those that are of a certain age and have had no
activity for a certain amount of time.

Another problem for BLM is its use of multiple systems that do not adequately
interface. As a result, coded data must be manually transferred among BLM’s
various systems, but the data is not systematically reconciled to ensure accuracy
and consistency. Our testing found numerous errors related to manual entry, and
because no reconciliation process exists, these errors were not identified or
corrected by BLM. The absence of such reconciliation across systems means that
fire-related data may be inconsistent across the Fire Code system, the Resource
Ordering and Status System that mobilizes fire resources, the payroll system, and
other data collection programs capturing information related to fire preparedness
and suppression. Each manual transfer increases the likelihood of error and
discrepancy.

There is no systematic reconciliation by BLM that compares charges for a given
fire against the personnel or other resources assigned to that fire. This leads to
uncertainty as to the cost of a given fire incident, impacting reimbursement from
human-caused fires as well as BLM’s ability to fully account for taxpayer funds.
The district office responsible for reporting on a given fire can access BLM’s
various accounting systems to see all fire-related charges that have been made,
including payroll, travel costs, and purchases using Government purchase cards,
as well as the fire codes to which such charges have been applied. Some district
officials, however, did not know that they had this ability. Such knowledge would
have allowed them to reconcile and thus correct many of the errors that we noted.
BLM officials informed us that new procedures are under development that may
fix this problem, and that business management is receiving increased emphasis
during national fire preparedness reviews.

 Recommendations

 BLM should:

    1. develop and implement procedures to restrict an individual’s ability to
       charge either time or purchases to a specific fire code;

    2. develop and implement procedures to limit the amount of time that fire
       codes are left open after a fire is declared extinguished; and

    3. develop and implement procedures to increase monitoring and
       reconciliation to verify that charges to fire codes are valid for the
       specific fire.




                                                                                 7
Purchase Cards
Inconsistent administrative oversight of purchase cards resulted in the incomplete
or inaccurate documentation of purchases. At the four districts we visited, we
found incomplete purchase card transaction documentation, including files that
were missing resource orders, receipts, and authorizing signatures. Poor
documentation encourages an environment where purchase cards can be misused.

In 2011, BLM Internal Affairs began to review the fire suppression program due
to finding $799 thousand in gift card purchases, with approximately $70 thousand
of those charges on a Government purchase card from the Idaho State Office.
Government cards had been used to purchase gift cards from various vendors such
as REI, American Express, FredMeyer, and Visa. When the BLM investigator
requested supporting documentation for the expenses, staff could not locate the
purchase card statements, which were said to be missing. In December 2012, a
BLM employee also pled guilty to using her Government purchase card to buy
electronic equipment and gift cards for personal use. BLM found that approving
officials were not adequately reviewing purchase card records and receipts. The
Bureau demonstrated weak internal controls over purchase cards and poor
compliance with Federal policy, which makes the purchase card program
susceptible to fraud, waste, and abuse.

Recent BLM internal reviews of the Boise and Carson City Districts identified
similar issues, signaling that employees do not fulfill requirements to support
purchases with required documentation and that supervisory review of purchases
is inadequate. Since traditional internal controls are impractical in emergency
firefighting situations, compensating internal controls, such as resource orders and
receipts, become even more important. These compensating controls ensure that
highly pilferable items, such as GPS units or iPads, purchased during a fire
emergency, are properly accounted for and entered into inventory records. When
these controls are not properly followed, the potential for theft of items that are
also desirable for home use substantially increases. In addition, the opportunity
for such theft to go undetected grows considerably.

Finally, we found purchase card charges inappropriately applied to the fire
suppression line of accounting instead of fire preparedness. This distorts both the
basic operating budget for fire units and the costs associated with specific fire
incidents. For example, in the Southern Nevada District, charges had been applied
to fire suppression accounts for such items as pest control services, an atlas, and a
chainsaw purchased before the fire started. In addition, in the Carson City
District, charges for janitorial services amounting to $3,200 had been charged to
fire suppression against multiple fires in another State. Such situations go counter
to the purposes for which the budget was initially approved.

Specifically, the fire preparedness line of accounting is to be used for fire
prevention and detection as well as for equipment, training, and baseline
personnel costs—expenses that should not be charged to suppression. BLM needs


                                                                                    8
to conduct normal operations within the constraints of its budget like any other
agency. When BLM improperly uses the fire suppression line of accounting for
normal operating costs, it impairs the ability to account accurately for taxpayer
dollars spent—both for preparedness and for emergency firefighting.

 Recommendations

 BLM should:

    4. ensure that compensating controls to support purchase card
       transactions, such as resource orders, are in place and operating in all
       offices;

     5. establish plans to ensure that authorizing officials are properly
        reviewing purchase cardholder monthly statements, including validating
        the authorization and receipts for all purchases; and

    6. conduct periodic reviews to ensure purchase costs are charged to the
       correct program activity (suppression or preparedness) and fire code
       (if suppression).


Property
Inaccurate and incomplete property inventory listings increase the potential for
the undetected theft of handheld tools, cameras, and other items that are used to
fight fires but that are also equally desirable for personal use. Incomplete
inventories also increase the likelihood that BLM may unknowingly purchase
items it already owns in sufficient quantities. Thus, when internal controls
designed to ensure accountability of property are not followed, needless increases
to the overall costs of firefighting can occur.

The four districts we visited could not produce a complete or accurate list of
locally managed property. When property was tracked, tracking occurred based
on chronological event (e.g., issuance, transfer, or disposal), rather than through
records retrievable by person or item. Also, not all of the sites had BLM decals or
other appropriate markings on the equipment we examined. For example, the
Idaho Falls District could not account for anything purchased prior to 2011.

In addition, physical property on hand did not always match signed inventory
records, as illustrated by a specialty printer and a utility vehicle located in the
Boise District but not on the current inventory list. The Carson City District
inventory listed a fire pump and truck that had been disposed of prior to 2013,
although the responsible employee signed the 2013 inventory indicating that the
district still owned it.




                                                                                      9
Mistakes do occur in any organization, but the prevalence with which we found
inventory errors indicates an inadequate environment for controlling property.
Effective property accountability helps to deter theft and prevent duplicate
purchases, thus supporting program economy.


 Recommendations

 BLM should:

     7. complete a physical inventory of all system-controlled and locally
        managed property;

    8. ensure that all system-controlled and locally managed assets are
       properly marked as Government property; and

    9. establish controls that allow for retrieval of property by property type
       (e.g., camera) and responsible employee.


Payroll
BLM demonstrated grossly inadequate internal controls when accounting for
payroll costs, placing itself at high risk for fraud while simultaneously hampering
its ability to substantiate allegations of fraud, were they to occur. For example, in
the Southern Nevada District, we found that staff charged time to fires before the
fires even occurred and that at least one employee charged time to a fire
approximately 9 months after the fire was out. In addition, the Carson City
District could not provide us with any supporting timesheets, crew time reports, or
firefighter time reports for the 2010 fires. At two of the other districts we visited,
we also found instances of missing or inadequate supporting documentation. This
absence of supporting documentation leaves the wildland fire program’s payroll
charges at high risk for fraud and generally makes it impossible to verify the
accuracy of most payroll charges.

Risk management strategies designed to support safe firefighting practices cannot
be verified when internal controls are not followed and adequate documentation is
not maintained. Specifically, managers are required to use aggressive risk
management to prevent accidents. One such risk management tool is fatigue
mitigation, which requires 1 hour of rest/sleep for every 2 hours of work. Without
detailed records of the number of overtime hours authorized for each firefighter,
officials cannot later determine whether required fatigue mitigation risk
management plans have been followed. While BLM national policy for
interagency fires requires that either a crew time report or a firefighter time report
be used for timekeeping purposes, BLM policy for local fires does not expressly
require either of these forms.



                                                                                   10
In addition, we found that firefighters were not properly charging overtime and
hazard pay against the proper fire codes. When improper fire codes are used,
BLM may be unable to determine the total cost of a fire, particularly in the case of
trespass or arson where costs have the potential to be reimbursed. For example, in
the Carson City District, we sampled 10 payroll items for individuals assigned to
a fire and determined that only 22 percent of the sampled overtime costs were
actually authorized for the specific fire. The remaining 78 percent of overtime
should have been charged to other fires. In the same district, we also found that
multiple people charged time to a fire to which only one person actually was
assigned.

Finally, DOI policy requires that employees funded with fire preparedness dollars
continue to charge their regular hours to the fire preparedness program even when
they are assigned to a wildfire suppression incident (DOI Base 8 Funding Policy,
FA IM-2011-27). Overtime and premium pay should be charged to a unique fire
code attached to suppression monies. Our review found that personnel from the
Southern Nevada District charged regular base pay to suppression, instead of
preparedness. Inconsistent practices for recording payroll costs distort the
apparent costs of unit operations and fire incident response.

 Recommendations

 BLM should:

    10. ensure that proper documentation is created and maintained to
        support payroll authorizations; and

    11. conduct periodic reviews to ensure that payroll costs are charged to
        the correct program activity (suppression or preparedness) and fire
        code (if suppression).




                                                                                 11
Conclusion and Recommendations
Conclusion
The BLM wildland fire program is vulnerable to misuse of funding in part
because of the program’s laxity in internal control supervision. The weaknesses
inherent in monitoring dollars spent and assets purchased make the program
susceptible to fraud. We identified four internal control areas needing
improvement: fire codes, purchase cards, property, and payroll. We encourage
improved accountability over program resources and more accurate reporting and
recordkeeping. We believe that such improvements will benefit program
transparency and facilitate better use of taxpayer dollars, helping to reduce the
vulnerability of the program overall and improving accountability for fiscal
resources.

Recommendations Summary
In its response to our draft report (see Appendix 8 , and below for a summary of
BLM’s response to each recommendation), BLM indicated that it “has undertaken
an unprecedented, high-priority effort to improve the business management of its
fire program.” BLM’s general response indicates that “significant, concrete steps
… mark a cultural shift in how fire-related funds are managed at every level of
the BLM fire program on an ongoing basis.”

Specifically, BLM indicated that it—
   • has focused on improving its policy for business management and
       published its Standards for Fire Business Management;
   • has invested in training and hiring fire business specialists and fire
       administrative assistants whose primary job is to help fire management
       personnel adhere to current guidance on use of fire funds;
   • has required training for all BLM fire program employees on ethical
       behavior, integrity, and business management policies;
   • has invested in new information technology tools to improve its oversight
       of fire expenditures; and
   • is developing new program reviews.

We recommend that BLM:

   1. Develop and implement procedures to restrict an individual’s ability to
      charge either time or purchases to a specific fire code.

       BLM Response: BLM concurred with this recommendation in principle,
       and said it had addressed this concern through a combination of clarified
       policy and strengthened reviews. BLM notes in its response that it is not
       currently in a position to implement a manual or system-based restriction
       of fire codes but has strengthened policy, audit, and enforcement
       requirements to ensure that codes are used in an authorized manner. BLM


                                                                                12
   says it will revisit the technical feasibility of limiting fire codes to specific
   personnel by January 2016.

   OIG Reply: We acknowledge that up-front systems controls might face
   significant technical hurdles or be beyond BLM’s direct ability to
   implement, given the inter-agency context in which it operates. Absent
   these strong controls, we consider this recommendation resolved but not
   implemented. In addition to revisiting the technical feasibility of system-
   based controls, BLM should assess the effectiveness of its recent changes
   to policy, monitoring, and enforcement before deeming this corrective
   action complete. Effectiveness requires that policy is communicated to
   those who implement it, that monitoring efforts identify noncompliance
   and its causes, and that enforcement procedures ensure that corrective (and
   disciplinary, if warranted) action is taken. We will refer this
   recommendation to the Assistant Secretary for Policy, Management and
   Budget (PMB) to track implementation.

2. Develop and implement procedures to limit the amount of time that fire
   codes are left open after a fire is declared extinguished.

   BLM Response: BLM concurred with this recommendation and indicated
   that it has addressed the issue through new procedures. It indicated that
   fire codes are now closed 18 months after their last activity, a reduction
   from 24 months. BLM acknowledged that current aviation billing
   practices are a significant factor limiting improvement in this area and
   stated that it is testing new processes to expedite billing and may reduce
   the time it takes for final costs to enter the financial system. Further, BLM
   indicated that identifying codes to be deactivated is “an exceptionally
   burdensome task” but that it is analyzing other ways to develop lists of
   codes suitable for closing. The process and time limits for fire codes to be
   closed will be reviewed on a regular and continuing basis, according to
   BLM. Specifically, the 18-month closure policy and other potential
   improvements will be reviewed by January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. Results of ongoing process and data
   analyses should be considered before deeming this corrective action
   complete. We will refer this recommendation to PMB to track
   implementation.

3. Develop and implement procedures to increase monitoring and
   reconciliation to verify that charges to fire codes are valid for the specific
   fire.

   BLM Response: BLM concurred with this recommendation and has
   addressed it through policy and through national, state, and local review



                                                                                  13
   processes. Ongoing monitoring will ensure the policy continues to be met.
   In addition to its response to our draft report, BLM provided examples of
   the types of findings its new reviews are uncovering at district and field
   sites.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved and implemented.

4. Ensure that compensating controls to support purchase card transactions,
   such as resource orders, are in place and operating in all offices.

   BLM Response: BLM concurred with this recommendation and has
   addressed it through policy and through national preparedness reviews,
   conducted annually on a rotating basis in three states and through periodic
   audits. BLM will continue to monitor compliance with policy and will
   consider additional corrective measures by January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. We note that BLM policy requiring
   documentation to support charge card purchases was already in place prior
   to our fieldwork and the findings in this evaluation report. BLM has
   implemented additional reviews to assure conformance to these
   established policies, and should assess the effectiveness of its new review
   procedures before deeming this corrective action complete. We will refer
   this recommendation to PMB to track implementation.

5. Establish plans to ensure that authorizing officials are properly reviewing
   purchase cardholder monthly statements, including validating the
   authorization and receipts for all purchases.

   BLM Response: BLM concurred with this recommendation and has
   addressed it through policy, procedures, and internal controls. BLM has
   provided BLM Standards for Fire Business Management (known as the
   “Orange Book”) for specific direction to charge card users and managers,
   beginning in 2010, and has subsequently implemented supporting and
   accountability enforcement actions for all Bureau personnel including fire.
   Enforcement and auditing is ongoing. BLM will review progress on
   charge card controls in accordance to the Integrated Charge Card Manual
   (BLM 1512) and consider additional improvements by January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. We note that these policies, procedures,
   and internal controls were in place prior to our fieldwork and the findings
   in this evaluation report. BLM should assess the effectiveness of its
   improved monitoring and “supporting and accountability enforcement




                                                                             14
   actions” before deeming this corrective action complete. We will refer this
   recommendation to PMB to track implementation.

6. Conduct periodic reviews to ensure purchase costs are charged to the
   correct program activity (suppression or preparedness) and fire code (if
   suppression).

   BLM Response: BLM concurred with this recommendation and indicated
   that it has already addressed it through policy. BLM will continue to
   monitor to ensure adherence. Further, BLM has completed a national
   review of suppression purchases that resulted in lists of suspect
   transactions being provided to state office staff to ensure the validity of the
   charges. According to BLM, this review was an initial test of an annual
   review of program expenditures. In addition, a new report has been
   developed by BLM’s headquarters’ office to help managers track charge-
   card expenditures made to the fire program and should give managers
   better oversight of their employees’ charge card use.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved and implemented.

7. Complete a physical inventory of all system-controlled and locally-
   managed property.

   BLM Response: BLM partially concurred with this recommendation, to
   the extent that the recommendation addresses cache items and major
   property purchased with fire funds and has addressed it through new
   policy and procedures. It indicated that it currently exceeds DOI
   requirements in that all capitalized assets, radio assets, and firearms have
   to be inventoried annually. BLM stated that it already completes
   inventories of major property according to DOI standards, and will
   continue to explore a practical method of tracking small items. Further,
   BLM stated that its practice is to conform to interagency policy guidance
   on incident-procured property.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   unresolved. We note that BLM Manual 1520 (issued 2011) and the
   updated BLM Standards for Fire Business Management (issued 2013)
   both require “an inventory of all accountable property (system-controlled
   and locally-managed).” The more important concern is that, regardless of
   the frequency of inventory activities, the inventory data in all four sites we
   visited were not complete or accurate, in accordance with BLM’s own
   standards. BLM should make, and communicate, a management decision
   as to what property must be inventoried and how frequently. Further,
   BLM should implement reviews that ensure inventories are reasonably
   accurate. BLM should not deem this corrective action complete until they



                                                                               15
   find that the accuracy of field inventory data is improving. We will discuss
   this recommendation further with BLM officials before referring it to
   PMB to track resolution and implementation.

8. Ensure that all system-controlled and locally-managed assets are properly
   marked as Government property.

   BLM Response: BLM concurred with this recommendation and is
   pursuing process improvements to ensure adherence to current policy. It
   will conduct periodic reviews to ensure Government property is properly
   marked, and will consider additional changes to policy based on periodic
   reviews of Government property. BLM’s target date for corrective action
   is January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

9. Establish controls that allow for retrieval of property by property type
   (e.g., camera) and responsible employee.

   BLM Response: BLM concurred with this recommendation and is
   exploring options to create better controls at this level of detail. Potential
   options to explore include having an incident business specialist on hand
   through the close-out process, and establishing a Bureau-wide format for
   tracking locally managed items, as well as tracking using the FBMS
   database for sensitive items. In its response, BLM indicated a target date
   of January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.

10. Ensure that proper documentation is created and maintained to support
    payroll authorizations.

   BLM Response: BLM concurred with this recommendation and has
   already addressed it through policy and procedures. Documentation is
   monitored on a continual basis through review and oversight. BLM has
   also updated employee training to stress the importance of proper
   timekeeping and payroll documentation. BLM will review progress and
   consider additional improvements by January 2016.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved but not implemented. We will refer this recommendation to PMB
   to track implementation.



                                                                                16
11. Conduct periodic reviews to ensure that payroll costs are charged to the
    correct program activity (suppression or preparedness) and fire code (if
    suppression).

   BLM Response: BLM concurred with this recommendation and has
   already met its direction through a variety of tools and oversight. Notably,
   it has developed a means to integrate data from three separate systems and
   will use this tool as part of readiness reviews to be conducted annually for
   each of BLM’s twelve state fire management programs, on a rotating
   basis.

   OIG Reply: Based on BLM’s response, we consider this recommendation
   resolved and implemented.




                                                                               17
Appendix 1: Scope and Methodology
Scope
Our scope covered Bureau of Land Management (BLM) wildland fire program
suppression and preparedness funding for fiscal years 2010 and 2011. We
conducted site visits to BLM State offices in Utah and Idaho, BLM District
offices in Idaho and Nevada, and the fire interagency office in Idaho, from May
2012 through March 2013.

We conducted our evaluation in accordance with the Quality Standards for
Inspection and Evaluation as put forth by the Council of the Inspectors General on
Integrity and Efficiency. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations. We did not review the
data reliability of the various information systems.

Methodology
To accomplish our objective, we—

   •   interviewed fire interagency and Bureau officials to discuss the use of fire
       codes, payroll and charge card charges, and accountability of property;
   •   reviewed applicable laws, regulations, policies, procedures, and various
       reports related to the use of fire suppression and preparedness funding
       within BLM’s wildland fire program; and
   •   analyzed a limited number of judgmentally selected payroll records,
       charge card statements, and property items.
Although the number of specific transactions and items we examined is small
relative to the full scale of the program, we believe the work we completed is
sufficient to demonstrate that deficiencies exist in the control system.




                                                                                  18
Appendix 2: Sites Visited and
Contacted
     Sites Visited or Contacted                    Locations

 Idaho State Office                 Boise, ID


 Boise District Office              Boise, ID


 Hammett Guard Station              Hammett, ID


 Idaho Falls District Office        Idaho Falls, ID


 Twin Falls District Office         Twin Falls, ID


 Shoshone Field Office              Shoshone, ID


 Carson City District Office        Carson City, NV


 Southern Nevada District Office    Las Vegas, NV


 Montana State Office (contacted)   Billings, MT


 Utah State Office                  Salt Lake City, UT


 National Interagency Fire Center   Boise, ID




                                                               19
Appendix 3: Schedule of Monetary
Impact
                                                         Questioned
                                         Funds Put
                                Rec                         Costs
           Issue                         to Better
                                 #                       Unsupported
                                            Use
                                                            Costs
     Purchase Cards
                                  4
  Unauthorized Purchases
     for Personal Use
     Purchase Cards

    Invalid and Purchases         5                        $41,042.95
     Without Supporting
       Documentation
          Property

    Improving Inventory,          7
    Decreasing Duplicate
        Purchasing
          Payroll
                                          Unable to
                                 10                        $73,257.01
   Time Claimed Without                   determine
 Supporting Documentation


           Total                                          $114,299.96



Given the level of internal control weaknesses we identified, the volume of
missing documentation, and the manner of tracking costs by fire code rather than
by location, we were unable to determine the exact monetary impact in each
category.




                                                                               20
Appendix 4: Boise District Office
As part of our evaluation of the Bureau of Land Management (BLM) wildland
fire program, we visited BLM’s Boise District Office to review property,
purchase card use, payroll, and fire codes. We found some control weaknesses
and deficiencies in documentation, which create the risk of fraud, theft, or misuse
of U.S. Government resources.

Property
BLM’s manual for personal property management requires field offices to
maintain a complete and accurate inventory of all property owned. BLM policy
also requires that system-controlled property, which includes property with an
acquisition cost greater than $5,000, be recorded and controlled in the U.S.
Department of the Interior’s Financial and Business Management System
(FBMS).

Since locally managed property has an acquisition cost below the accountability
threshold, it must be managed through local procedures, such as the use of a
receipt for property (DI­105). Examples include property that, if lost or stolen,
could result in security risks to BLM proprietary data (e.g., cell phones,
BlackBerrys, and flash drives) and property that could easily be converted to
personal use (e.g., dual-purpose items such as cameras, binoculars, and GPS
units). Locally managed property that can be easily pilfered should be controlled
on a signed DI-105 and affixed with a BLM decal or other appropriate marking.

During our site visit, we found multiple property lists for system-controlled
property belonging to the Boise District fire group (lists for fire, cache radios, and
dispatch). We judgmentally selected 31 property items from the fire system’s
controlled property list. We verified all but one AM radio, which was said to be
located offsite in Mountain Home. We also physically observed and located
another 47 items on this property list. We observed, however, a specialty printer
located in the fuels building that was not included on any of the property lists.

We conducted a complete inventory of the radio cabinet in the warehouse. The
cabinet contained 164 radios. Records for these radios, however, indicated that 2
of them were lost and 49 of them were assigned to individuals.

We also found that the District Office has not been recording locally managed
property purchases. As a result of our onsite property verification, we were
concerned that certain system-controlled property listings were not accurate,
especially since we found items not on the latest property listing. We were also
concerned that dual-purpose items, such as cameras, cell phones, computer
monitors, and televisions, were not being adequately tracked at the local level.




                                                                                   21
Charge Cards
For charge card and payroll data extracted from FBMS, we based our analysis on
the two categories: total charge card costs per acre and average labor cost per
hour. We judgmentally selected two fires—FY4H OTA 106 and F9BN Big
Foot—from which to sample associated purchase card and payroll data.
Our preliminary data review of the FY4H OTA 106 fire showed costs were
charged by individuals from offices other than the Boise District. We found that
charges to the OTA 106 fire appear to have been for a fire in Texas (FYH4).
Charges were miscoded due to what appears to be a transposition error of the fire
code.

Due to the transposition error, we decided to select another Boise District fire,
GAK3-MM101 184. Discussions with Boise fire staff, however, revealed that
none of the employees in our sample were Boise Fire District employees. The
employees were actually based out of the Shoshone fire district. Boise District
staff determined that a fire in the Shoshone district, coded GAK2, burned more
than 150 acres that same day. We concluded that the apparent overcharges to
GAK3 were likely improper charges that should have been allocated to GAK2.

A system of internal controls over the use of Government charge cards would
help BLM minimize the potential for fraud and misuse. According to BLM
policies and procedures guiding charge card statement reconciliation, the
cardholder is required to provide a clear, concise description of the item
purchased, including supply number or vehicle license number where applicable.
Pertinent resource orders also are supposed to be filed with the charge card
statement. Both the cardholder and the approving official must sign and date the
charge card statement and related purchase log.

We reviewed all the charge card transactions for the F9BN Big Foot fire. Analysis
of the fire’s $9,105 total charge card costs, revealed questionable charges:

   •   An amount of $219 was incorrectly charged. According to the description
       and accounting code on the charge card statement, this cost should have
       been charged to another fire.
   •   Two dry-erase boards costing $277 should not have been charged to the
       Big Foot fire because they were meant to be used by the shop and did not
       solely benefit this fire.
   •   We question whether field supplies such as 28 helmets and 48 helmet pads
       solely benefited the Big Foot fire and whether they should have been
       charged against its fire code. Based on the number of meals charged (a
       more reliable metric than the number of helmets), we determined that 45
       people worked on the fire.
   •   We also identified missing charge card statements. We obtained copies
       from BLM’s National Operations Center, which lacked adequate line-item
       descriptions and receipts.



                                                                                    22
Payroll
Employee timekeeping records are to be maintained under a system of control and
relied upon for payments to these program personnel. Emergency firefighter time
reports and crew time reports certified with an authorized signature are considered
accurate for pay purposes. We judgmentally selected 35 payroll items associated
with the Big Foot fire and found that 14 had no timesheets associated with them.
Of the remaining 21, we found signatures missing, as well as no support
documentation such as justification for 16-hour shifts and hazard pay. Inaccurate
timekeeping heightens the risk of misuse of preparedness and suppression funds.

Coding
We also reviewed the use of fire codes and miscellaneous quad codes:

   •   Fire codes: Using the data from FBMS, we determined the universe of fire
       codes assigned to the Boise district. We selected a sample that included
       fire codes FUG5, GG44, GG45, GJ41, GJ8T, and GKE6. After reviewing
       the fire reports and talking with individuals from the Idaho, Wyoming, and
       California offices, we determined each district had the authority to charge
       against the fire codes. The wrong fire codes, however, were being used
       when these districts charged their costs to specific fire codes:
       o Charges against FUG5 from Wyoming should have been charged
           against FVG5.
       o Charges against GG44 from California should have been charged
           against GG4U.
       o Charges against GG45 from California should have been charged
           against GG4S.
       o GJ41, GJ8T, and GKE6 did not have any charges against them; they
           were all Orchard Training Area (OTA) fires. The issue here is that
           each of these fire codes had two fire names. GJ41 is assigned to fire
           names OTA 133 and OTA 134; GJ8T is assigned to OTA 169 and
           OTA 170; and GKE6 is assigned to OTA 177 and OTA 178.
   •   Quad codes: We sampled quad code 4444, 7777, and 9999 transactions
       for fiscal years 2010, 2011, and 2012. We requested support for the
       selected transactions several times but never received it.

In reviewing the quad code 4444 sample selection data, we determined the
following:

   •   FY 2010
       o All the selected transactions appear to have been charged in
          accordance with policy, and costs were later transferred to specific fire
          codes as required. We were unable, however, to determine if the
          charges were transferred to the proper accounts.
   •   FY 2012
       o Some of the charges were not applied in accordance with policy
          because they were not travel related; however, all the transactions


                                                                                23
         were later corrected. In addition, all but one of the transactions appears
         to have been transferred to a specific fire code.
       o A charge of $2,598 for portable toilets for the crew yard initially was
         charged to quad code 4444 (travel), but then transferred out to quad
         code 9999 (miscellaneous).
       o Charges for replacing items destroyed by fire included a GPS unit
         costing about $400.
       o We received no receipt or resource orders to support a charge of $548
         for 40 breakfasts.

In reviewing the quad code 9999 sample selection data for fiscal years 2010
through 2012, we were unable to determine if the transactions were made in
accordance with policy or transferred to the proper account.




                                                                                24
Appendix 5: Carson City District
Office
As part of our evaluation of the Bureau of Land Management (BLM) wildland
fire program, we visited BLM’s Carson City District Office to review property,
purchase card use, payroll, and fire codes. We found some control weaknesses
and deficiencies in documentation, which create the risk of potential theft or
misuse of U.S. Government resources and related fraud.

Property
The Carson City District Office currently has no policy governing property other
than BLM’s overarching policy to maintain a complete and accurate inventory of
all property owned. Current BLM policy requires that system-controlled property,
which includes property with an acquisition cost greater than $5,000, be recorded
and controlled in the U.S. Department of the Interior’s Financial and Business
Management System (FBMS).

Since locally managed property has an acquisition cost below the accountability
threshold, it must be managed through local procedures, such as the use of a
receipt for property (DI­105). Examples include property that, if lost or stolen,
could result in security risks to BLM proprietary data (e.g., cell phones,
BlackBerrys, and flash drives) and property that could easily be converted to
personal use (e.g., dual-purpose items such as cameras, binoculars, and GPS
units). Locally managed property that can be easily pilfered should be controlled
on a signed DI-105 and affixed with a BLM decal or other appropriate marking.

While the Carson City District does not have a policy for locally managed
property, the district does maintain a listing of system-controlled and locally
managed property. We judgmentally selected 30 property items (17 system-
controlled and 13 locally managed) from the district office’s property list. During
our site visit, we located and verified additional property items.

As a result of our onsite property verification, we identified some discrepancies.
Specifically, 7 of the 17 system-controlled items could not be verified:

    •   A GPS unit, misclassified on the property list as a laptop computer, did not
        have a BLM inventory tag.
    •   A BLM inventory tag on a micro-motion sensor was not visible. We
        concluded this to mean the sensor did not have a tag.
    •   A BLM inventory tag had not yet been affixed to a smart board recently
        purchased for the new “hotshot” facility. 1
1
  The facility is used by interagency hotshot crews, which provide an organized, mobile, and skilled crew for
all phases of wildfire suppression. BLM has diverse teams of career and temporary Federal employees who
are multiskilled professional firefighters.




                                                                                                          25
 •       We were told that a truck pump still on the property list had been disposed
         of.
 •       A fire truck was said to be at a remote location that was closed for the
         season.
 •       Two laptop computers had recently been replaced.

In addition, 4 of the 13 locally managed items could not be verified:

     •    One GPS had been transferred to someone on detail and could not be
          located at the time of our visit.
     •    Three IBM Thinkpads® had been disposed of even though a DI-105 was
          located in the files.

We also found circumstances where DI-105s for locally managed property were
missing, incomplete, or outdated. In addition, locally managed property items that
we examined did not have decals or other markings to indicate they were BLM
property.

Charge Cards
A system of internal controls over the use of Government charge cards would
help BLM minimize the potential for fraud and misuse. According to the BLM
and Nevada State Office policies and procedures associated with reconciling
charge card statements, the cardholder is required to provide a clear, concise
description of the item purchased, including supply number or vehicle license
number where applicable. In addition, the pertinent resource orders should be
filed with the charge card statement. Both the cardholder and the approving
official must sign and date the charge card statement and related purchase log.

For our charge card review, we analyzed data extracted from FBMS, which
provided us with the charge card transactions for all personnel assigned to the
district that charged against a suppression fire code. We selected a sample of 40
transactions. Our review of charge card transactions identified several issues:

     •    For 19 of 40 transactions, the approving official did not sign and date the
          statements within 30 days of statement date.
     •    Two charge card statements were not signed and dated by cardholders,
          three were signed but not dated, and four were dated late.
     •    Three transactions had inadequate descriptions or were missing receipts.
     •    Four transactions had no indication of reallocation in FBMS.
     •    In four instances, costs were charged to the wrong fire code; codes were
          also either incorrectly written on the charge card statements or incorrectly
          entered into FBMS.
     •    In two instances, costs were charged to a single fire when they should
          have been allocated to more than one fire.
     •    More than $2,000 in fire retardant costs that should have been charged to a
          specific fire code was charged to miscellaneous (quad code 9999).


                                                                                    26
   •   A charge of $400 for water resource permits should not have been charged
       to fire suppression.
   •   Janitorial services ($3,200) for the Minden Dispatch Center were
       inappropriately charged to fire suppression. In addition, no procurement
       contract existed for these services.

Payroll
Timekeeping records for individuals are to be kept under a system of control and
relied upon for payments made to program personnel. To determine how
consistently this occurs, we had payroll data extracted from FBMS. We then
analyzed the fire data based on the two categories of labor costs per acre and labor
costs per hour.

We judgmentally selected four fires—FLP0 Indian, FL70 Empire, FJ54
Powerline, and F7LL Rifle—from which to pull payroll data and select a sample
for review. We analyzed 50 timekeeping records associated with the fires.
Twenty-eight of the records were for fiscal year 2010. The staff at the office had
no timekeeping documents available other than reports from the timekeeping
system available for that year (Quicktime). For fiscal years 2011 and 2012, our
review identified missing or unsigned timesheets. We found insufficient
documentation to support the overtime and hazard pay charges for all except two
of the sampled items. Of the 10 items reviewed for employees not associated with
Carson City fire management, we received adequate supporting documentation
for only 1 employee’s overtime and hazard pay charges. Specifically, we found
the following information:

   •   Indian: Only 1 of the 10 sampled employees was assigned to this fire,
       according to dispatch records. Therefore, of the $5,160 in payroll costs,
       $4,897 was inappropriately charged to this fire code.
   •   Empire: Only 2 of the 10 sampled employees were assigned to this fire,
       according to dispatch records. Another employee in the sample was a
       seasonal employee at the Stead Air Tanker Base. We were told she may
       have worked on this fire, but we could not verify her assignment from the
       records provided during our site visit. Seven of the 10 sampled items had
       excessive overtime, in the amount of $2,149, charged to the fire.
   •   Powerline: All of the 10 employees sampled were either assigned to the
       fire or in an overhead position associated with fire work. We concluded,
       however, that these individuals charged excessive amounts of holiday pay
       and overtime to this fire, even though the fire lasted less than an hour. For
       example, the assistant fire management officer charged 20 hours—12 on
       the day of the fire and 8 the next day—of overtime, amounting to $1,200.
       He told us that most of this time should have been charged elsewhere, and
       that he had worked on 2 of his days off due to high fire danger. In
       addition, three individuals charged 8 hours of holiday pay and 2 hours of
       overtime to this fire. After allowing for 2 hours of holiday pay, we



                                                                                  27
       concluded that $2,807 of the sampled overtime and holiday pay should
       have been charged to severity funding.
   •   Rifle: It appears that four individuals from outside the district may have
       inappropriately charged this fire code, in the amount of $1,309.

Inaccurate timekeeping heightens the risk of misuse of preparedness and
suppression funds.

Coding
We also reviewed the use of fire codes and miscellaneous quad codes:

   •   Fire codes: Using the data from FBMS, we determined the universe of fire
       codes assigned to the Carson City District. We selected a sample that
       included five fires: FM15 Constantia, FP0S Wolf Creek, FV4N Peterson,
       GA1D Ray May, and GG6C Buckeye. Based on our review, we
       determined that the district had the proper authority to charge to these fire
       codes.
   •   Quad codes: We selected a sample of quad codes 4444, 7777, and 9999
       transactions for fiscal years 2010, 2011, and 2012. The district’s use of the
       quad codes was mostly limited to charge cards. As for ABCD codes, we
       sampled 10 payroll charges from 2011 and 2012 from the EK1P fire code
       for assistance to the U.S. Forest Service at the Humboldt Toiyabe National
       Forest. We found inadequate support for overtime and hazard pay for 8 of
       the 10 sampled items. There was no support on file for three items, three
       items only had Quicktime runs on file for the pay period reviewed, and
       two items had timesheets but they were not signed by the supervisor. The
       remaining two items had signed copies of the timesheet in compliance
       with State Office guidance.

       Two individuals may have inappropriately charged expenses, in the
       amount of $477, to EK1P. These charges were not supported by the
       Wildland Computer Aided Dispatch System (WildCAD) logs provided.
       One of the charges pertained to an engine-crew member for days where
       WildCAD did not show the engine working on EK1P fires. The other
       charge pertained to a dispatcher on a day that WildCAD did not show any
       EK1P activity.




                                                                                    28
Appendix 6: Idaho Falls District Office
As part of our evaluation of the Bureau of Land Management (BLM) wildland
fire program, we visited BLM’s Idaho Falls District Office to review property,
purchase card use, payroll, and fire codes. We found some control weaknesses
and deficiencies in documentation, which create the risk of potential theft or
misuse of U.S. Government resources and related fraud.

Property
BLM’s overarching policy is to maintain a complete and accurate inventory of all
property owned. Current BLM policy requires that system-controlled property,
which includes property with an acquisition cost greater than $5,000, be recorded
and controlled in the U.S. Department of the Interior’s Financial and Business
Management System (FBMS).

Since locally managed property has an acquisition cost below the accountability
threshold, it must be managed through local procedures, such as the use of a
receipt for property (DI­105). Examples include property that, if lost or stolen,
could result in security risks to BLM proprietary data (e.g., cell phones,
BlackBerrys, and flash drives) and property that could easily be converted to
personal use (e.g., dual-purpose items such as cameras, binoculars, and GPS
units). Locally managed property that can be easily pilfered should be controlled
on a signed DI-105 and affixed with a BLM decal or other appropriate marking.

We selected a sample of 15 system-controlled and 3 locally managed property
items. We verified 13 of the 15 controlled items. The remaining two items were
said to be in remote locations. We were able to verify all of the locally managed
property items.

As a result of our onsite property verification, we are concerned that certain dual-
purpose items, such as cameras, cell phones, computer monitors, and televisions,
are not adequately tracked at the local level. We found that the district has been
recording locally managed property purchased within the last year. Property
procured more than a year ago, however, has continued to go unlisted.

Charge Cards
For charge cards and payroll, we analyzed fire data extracted from FBMS, based
on the two categories of total charge card costs per acre and average labor cost per
hour. We judgmentally selected two fires, EKW8 Hoolie and FN8W Lava Flow,
from which to pull charge card and payroll data and select a sample for review.

A system of internal controls over the use of Government charge cards would
help BLM minimize the potential for fraud and misuse. According to the Idaho
Falls District’s Fire Operations Guide, when reconciling charge card statements,
the cardholder is required to provide a clear, concise description of the item


                                                                                  29
purchased, including supply number or vehicle license number where applicable.
The pertinent resource orders also are supposed to be filed with the charge card
statement. Both the cardholder and the approving official must sign and date the
charge card statement and related purchase log.

The data extracted from FBMS provided us with the charge card transactions for
all personnel assigned to the district whose transactions were charged against a
suppression fire code. We sampled 24 purchases on the Lava Flow fire (FN8W)
and found—

    •   one missing statement;
    •   two purchases that did not have the cardholder signatures and no
        indication on the receipts as to what items were actually purchased;
    •   five instances where employees did not provide receipts for transactions,
        even though 4 of the 5 purchases in question were made through
        GovTrip;
    •   nine missing resource orders;
    •   two instances where the approving official signed the statement after the
        30-day requirement had passed; and
    •   one purchase involving meals bought during a fire for which we found no
        crew roster detailing for whom the meals were purchased.

Payroll
Individual timekeeping records are to be maintained under a system of control and
relied upon for payments made to program personnel. We sampled 30 payroll
items on the Lava Flow and Hoolie fires. On the Lava Flow fire, sampled payroll
items were coded in accordance with established policy. Of the 15 sampled items
reviewed for the Hoolie fire, however, we identified $1,676 of overtime charges
that were not coded in accordance with BLM policy. Specifically, five sample
items for pay period 2012-17 included overtime charged to fire suppression. BLM
guidance states that severity funds, not suppression funds, are to be used in such
instances.

In addition, we identified—

    •   $3,449 of payroll charges that were not adequately supported;
    •   missing documentation to support overtime and hazard pay charges;
    •   a missing approval signature on the emergency firefighter time report;
        and
    •   18-hour shifts worked by three individuals, which exceeds the 16-hour
        workday policy and no justification was provided.

Inaccurate timekeeping heightens the risk of misuse of preparedness and
suppression funds.




                                                                                 30
Coding
We also reviewed the use of fire codes and miscellaneous quad codes:

   •   Fire codes: Using the data from FBMS, we determined the universe of fire
       codes assigned to the Idaho Falls District. We selected a sample that
       included three fires: EK1N, F7CY, and GCA5. On EK1N and F7CY, we
       determined that all the districts charging against the fire codes had proper
       authority to do so. On fire code GCA5, we confirmed that this was an
       Idaho Falls District fire and that the Las Vegas Field Office was not
       involved. The charges made by the Las Vegas Field Office should have
       been charged to fire code GC5A.
   •   Quad codes: We selected a sample of quad codes 4444, 7777, and 9999
       transactions for fiscal years 2010, 2011, and 2012. We found no
       transactions associated with quad code 7777. All of the transactions we
       selected appeared to have been charged in accordance with policy.




                                                                                31
Appendix 7: Southern Nevada District
Office
As part of our evaluation of the Bureau of Land Management (BLM) wildland
fire program, we visited BLM’s Southern Nevada District Office to review
property, purchase card use, payroll, and fire codes. We found some control
weaknesses and deficiencies in documentation, which create the risk of potential
theft or misuse of U.S. Government resources and related fraud.

Property
BLM’s policy is to maintain a complete and accurate inventory of all property
owned. Current BLM policy requires that system-controlled property, which
includes property with an acquisition cost greater than $5,000, be recorded and
controlled in the U.S. Department of the Interior’s Financial and Business
Management System (FBMS).

Since locally managed property has an acquisition cost below the accountability
threshold, it must be managed through local procedures, such as the use of a
receipt for property (DI­105). Examples include property that, if lost or stolen,
could result in security risks to BLM proprietary data (e.g., cell phones,
BlackBerrys, and flash drives) and property that could easily be converted to
personal use (e.g., dual-purpose items such as cameras, binoculars, and GPS
units). Locally managed property that could be easily pilfered should be
controlled on a signed DI-105 and affixed with a BLM decal or other appropriate
marking.

We selected a sample of 10 controlled and 9 locally managed property items. As a
result of our onsite property verification, we found controlled property is being
stored and identified as set by local and BLM wide policy. All but one handheld
radio was verified due to it being located at the Logandale fire station.

We were concerned that certain dual-purpose items—such as cameras, cell
phones, computer monitors, and televisions—were not adequately tracked at the
local level. We found that the district does use DI-105s to record locally managed
property; however, these forms cannot be retrieved either by employee or by item
because the district does not have a searchable log of property issuance and
return. DI-105s are kept in at least three separate places, and are filed in the order
in which they are processed. Thus, to verify who signed for a particular item, one
would already have to know when the item was issued, who collected the DI-105,
and whether anyone else had subsequently signed for the same item (e.g., a
camera passed from one employee to another should result in a new DI-105).




                                                                                    32
Charge Cards
A system of internal controls over the use of Government charge cards would
help BLM minimize the potential for fraud and misuse. According to BLM and
Nevada State Office charge card policies and procedures associated with
reconciling charge card statements, the cardholder is required to provide a clear,
concise description of the item purchased, including supply number or vehicle
license number where applicable. The pertinent resource orders are also supposed
to be filed with the charge card statement. Both the cardholder and the approving
official must sign and date the charge card statement and related purchase log.

For our charge card review, we analyzed data extracted from FBMS, which
provided us with the charge card transactions for all personnel assigned to the
district whose transactions were charged against a suppression fire code. We
selected a sample of 29 transactions. We questioned 18 of them and identified—

   •   resource orders not attached to the charge card statement for review and
       missing supply numbers on statements;
   •   resource orders not specific enough to support the charge;
   •   purchases charged that did not directly support the fire (pest control, an
       atlas, and a chainsaw);
   •   transposed numbers on charge card statements, causing the wrong fire to
       be charged;
   •   handwritten resource orders; and
   •   one missing cardholder signature and two missing supervisor signatures.

Payroll
Timekeeping records for individuals are to be kept under a system of control and
relied upon for payments made to program personnel. To determine how
consistently this occurs, we had payroll data extracted from FBMS. We then
analyzed the fire data based on two categories: labor costs per acre and labor costs
per hour. We judgmentally selected four fires—FK0W First Creek, FH2R
MOAPA, FAL3 Palm Tree, and FF2M Muddy—from which to pull payroll data
and select a sample for review. We reviewed 36 timekeeping records associated
with the fires, for which 17 had no support at all. Of the remaining 19, a number
of deficiencies included—

   •   missing crew time reports (SF-261) and firefighter time reports (OF-288);
   •   no authorization for overtime;
   •   missing signatures;
   •   employees who received more hours of hazard pay than authorized;
   •   missing justification for 16-hour days; and
   •   employees charging time to a fire before it started or after it was declared
       out.




                                                                                 33
We also found that fire personnel had charged their base 8 hours—their standard
schedule—to suppression funds. BLM policy indicates that these hours should be
charged to preparedness.

Inaccurate timekeeping heightens the risk of misuse of preparedness and
suppression funds.

Coding
We also reviewed the use of fire codes and miscellaneous quad codes:

   •   Fire codes: Using the data from FBMS, we determined the universe of fire
       codes assigned to the Southern Nevada District. We selected a sample that
       included three fires: FW95, GC8L, and GCA5. We did not look at GCA5
       since it had been reviewed during the Idaho Falls site visit. For fire code
       FW95 False Alarm 19, we verified that the costs from Nevada were valid
       but that the charges should have been against fire code FW9F. Costs
       charged to fire code GC8L Mormon from Nevada and Arizona were valid.
       We did find that one Arizona employee inappropriately charged time to
       the fire during pay periods 2011-20 and 2011-21. According to resource
       orders, the employee had been assigned to work another fire during that
       time. We also found that Utah inappropriately charged payroll costs to this
       fire during pay period 2012-09, almost 1 year after the fire occurred.
   •   Quad codes: We selected a sample of quad codes 4444, 7777, and 9999
       transactions for fiscal years 2010, 2011, and 2012. There were no
       transactions for quad code 7777. We sampled 10 transactions from quad
       code 4444 and found; none of the transactions were travel related. All of
       these charges were transferred to the proper account, but none of these
       transactions were conducted in accordance with policy. Of the six sampled
       quad code 9999 transactions, we identified two transactions that should
       not have been charged to this account and one transaction had no
       supporting documentation. All of the other transactions were made
       according to policy.




                                                                               34
Appendix 8: BLM Response
BLM’s memorandum responding to our draft report follows on page 36. The
Bureau’s specific comments made in response to our recommendations are
summarized in the conclusion and recommendations summary section of our
report, beginning on page 12.




                                                                          35
                     United States Department of the Interior
                               BUREAU OF LAND MANAGEMENT
                                       Washington, DC 20240
                                         http: twww.blm.gov


In Reply Refer To:
1245 (W0830)                                SEP 1 1 2014

Memorandum

To:            Mary L. Kendall
               Deputy Inspector General

Through:       Janice M. Schneider      ~
               Assistant Secretary - Land Jn'd Minerals M~gement

From:          Neil G. Komze      /'1~
               Director

Subject:       Office of the Inspector General Draft Evaluation Report "Bureau of Land
               Management's Wildland Fire Program" (C-EV-BLM-0003-2012)

Thank you for the opportunity to review and comment on the Office oflnspector General (OIG)
draft report on the Bureau of Land Management's Wildland Fire Program (C-EV-BLM-0003-
2012, dated August 12, 2014). The Bureau of Land Management (BLM) has no greater
responsibility than responding to the growing threat posed by fire to Western communities and
landscapes. Effective management of the BLM's large and complex fire program is critical to
the nation and a top priority for me and my team. In concert with your office, the Bureau in
recent years has undertaken an unprecedented, high-priority effort to improve the business
management of its fire program. We welcome and appreciate the assistance of your office in
strengthening the management of this critical program.

The BLM works as part of a coordinated interagency and intergovernmental response to
wildland fire that includes thousands of wildland firefighters in all fifty states responding to
thousands of fires every year. The BLM Wildland Fire Program is a critical component of our
nation's overall wildland firefighting capacity. To offer a sense of the scope of the work that our
fire team engages in, last year alone, BLM's 2,000 firefighters helped respond to 5,400 fire
events nationwide on Federal, state and private lands nationwide. This includes 2,600 fires that
burned over a million acres of lands managed by the BLM.

In addition to fire suppression, the BLM Wildland Fire Program also works year-round to
manage fuel loads across more than 245 million acres of Western landscapes to reduce the
potential for future wildland fire and the intensity of fires when they do occur. The current
overall budget for the range of activities undertaken by the BLM's Wildland Fire Program is
approximately $450 million and is provided through annual appropriations.




                                                                                                      36
                                                                                                     2

While fire management has been an important BLM activity for many generations, we have
never before seen the severity of fire on the western landscapes that we see today. Over the past
few decades, fire seasons have gotten longer, the number of average acres burned each year has
risen substantially, and the overall complexity of dealing with wildland fire has grown
immensely. Though there are many reasons for these changes, drought, insect infestation, and
invasive species are major contributors. The growth of communities living in the wildland-urban
interface has also made these fire conditions more dangerous and more damaging. These
increased challenges are borne by the entire wildland firefighting community, including the U.S.
Forest Service, the Bureau of Indian Affairs, the Fish and Wildlife Service, the National Park
Service and our critical state and local partners across the nation.

In response to this growing challenge, the BLM and its partners are increasing coordination,
strengthening business management practices, and proposing to restructure how wildland fire is
funded. In April of this year, the Administration released its National Cohesive Wildland Fire
Management Strategy, outlining new approaches to coordinate and integrate efforts in order to
better address the nation's wildland fire threats. In addition to the Strategy, the President's fiscal
year 2015 budget outlines a new framework for funding fire suppression by treating extreme
fires like other natural disasters. This change will help stabilize agency fire budgets, provide
stable support for fire suppression, and allow the agencies to continue to invest in fuels
management, preparedness, and restoration.

In concert with these actions, the BLM has undertaken an unprecedented, high-priority effort to
improve the business management of its fire program. Due to the inherent complexity and
challenges of fighting wildland fire at its current scale, and the need to move fire assets quickly
where they are needed most to protect human life, communities and resources, the BLM fire
program has experienced occasional business management vulnerabilities in billing,
timekeeping, and property management In partnership with your office, the BLM has identified
and aggressively addressed these issues. The significant, concrete steps taken as a result of this
collaboration mark a cultural shift in how fire-related funds are managed at every level of the
BLM fire program on an ongoing basis.

Specifically, the BLM has published new guidance, hired additional management specialists,
strengthened internal reviews, and bolstered training. Earlier this year, the BLM published its
first-ever Standards for Fire Business Management, a comprehensive handbook that significantly
strengthens policy for business management of the fire program and makes that infonnation
readily available to all BLM fire personnel. Additionally, the BLM has significantly expanded
its corps of Fire Business Specialists. These management experts are assigned specifically to
assist fire personnel in adhering to agency policy regarding business management.

The BLM has also expanded and strengthened its internal review of fire business management
practices. Now, each year the BLM conducts thorough, unannounced reviews of three different
BLM state fire programs on a rotating basis to ensure proper fiscal management, recordkeeping,
and property management. At the national level, all suppression and preparedness expenditures
are reviewed annually in a manner similar to the method that the 010 used in its review of the
BLM. The BLM has added training for all fire employees on proper behavior for timekeeping,
equipment management, and other issues. Additional detail on actions taken by the BLM to
improve its business management and respond to the recommendations in the 010 report is
included in the attachment




                                                                                                         37
                                                                                                      3

In reviewing the findings of the OIG report, it is important to make note of two principal
limitations. First, the report's conclusions are based on reviews of business practices that are in
some cases four years old and draw from on-site visits that occurred prior to the implementation
of many of the BLM's refonns, including those discussed above. While the BLM is always
committed to improvement of its program and its management oversight, we believe that the
suite of business refonns put in place over the past two years-since the investigation was
conducted-are significant and address the weaknesses identified by the OIG report.

Second, it is important to note the size of the fiscal impact of the shortcomings identified. The
BLM takes seriously any budget vulnerabilities, no matter the size. However, the potential costs
associated with any shortcomings must be placed in an appropriate context. The report identifies
potential costs that are relatively small. The Bureau therefore does not believe that these
management issues meaningfully impact the overall resources required to operate the BLM fire
program or the appropriations requested from Congress through the annual budget process.
Those amounts are driven by the severity of the fire season.

I am confident that as a result of completed and ongoing reforms, the business management of
the BLM fire program has never been stronger. My team and I are committed to continuing this
important work as part of our broader effort to strengthen the long-tenn fiscal stability of the
BLM fire program. I appreciate the attention and expertise your office has devoted to this
review and look forward to our continued engagement on these issues.

If you have any questions about this response, please contact me at 202-208-3801 or Ron
Dunton, Acting Assistant Director for Fire and Aviation, at 208-387-5303.
Attachment




Cc:   W0-800        W0-830       W0-1 00     ASLM
LLM:revised:830:das:9/10/14:Doc Name: BLM Response to OIG Fire Report 2014 09 10 1500




                                                                                                          38
Attachment

      Response to Recommendations in the Office of Inspector General Draft Report
                 Bureau of Land Management's Wildland Fire Program
                               (C-EV-BLM-0003-2012)

The Bureau of Land Management (BLM) Fire and Aviation Program is large and complex, with
average annual appropriations of approximately $450 million and wide-ranging responsibilities
that include protecting lives and property and managing wildfire and fuels across more than 245
million acres of Western landscapes.

The BLM has undertaken an unprecedented, high-priority effort to improve the business
management of its fire program. Due to the inherent complexity and challenges of fighting
wildland fire at its current scale, and the need to move fire assets quickly where they are needed
most to protect hwnan life, communities and resources, the BLM fire program has experienced
occasional business management vulnerabilities in billing, timekeeping, and property
management. In partnership with your office, the BLM has identified and aggressively
addressed these issues. The significant, concrete steps taken as a result of this collaboration
mark a cultural shift in how fire-related funds are managed at every level of the BLM fire
program on an ongoing basis.

The BLM has focused on improving its policy for business management. Earlier this year, the
BLM released in final form its Standards for Fire B11siness Management, a desk reference for
fire business that provides direction for proper management of fire program appropriations. The
reference, dubbed the "Orange Book,'' is a compilation in a single desk reference of pertinent
policy, guidance, and best practices for managing the complexities of fire business. The
intended users are BLM employees, including fire program specialists and everyone who has
reason to expend fire funds, or who supervise others who expend fire funds. While the Orange
Book alone does not completely address or resolve the eleven recommendations from the OIG
report, it represents significant, measurable progress in improved program and fiscal oversight.

In addition to policy improvements, the BLM has invested in training and hiring personnel. The
BLM has made hiring of state and unit-level Fire Business Specialists and fire administrative
assistants a priority over the past three years. The primary job of these fire-funded employees is
to help fire management personnel adhere to current guidance on use of fire funds. Additionally,
as of2013, required training for all BLM fire program employees includes a section on ethical
behavior, integrity, and business management policies, with modules addressing timekeeping,
equipment and gear management regarding finances and other elements.

The BLM has invested in new IT tools to improve its oversight of fire expenditures. The BLM
has developed an Access-based database that marries data from disparate systems into a
powerful analytical tool. Information from various systems is now combined in this tool for
national, state, or district use, allowing users to review the costs of fires by district, by state and
by acre and compare those costs against national averages. The tool also allows managers to
review labor charges.




                                                                                                          39
Finally. in order to ensure the efficacy of these management improvements, the BLM is
developing new program reviews that will allow the Bureau to identify single-case issues as well
as programmatic vulnerabilities. The BLM conducted a national review of suppression
purchases this past winter. The 2013-2014 suppression review was an initial test of an annual
review of expenditures in the fire program. Future reviews will be fonnalized according to
standardized protocols that are under development and conducted to ensure appropriate
management response to the findings. If a review reveals that a BLM state fU"e program has
transactions that appear questionable, that office will be required to respond to the finding and
address the issue.




                                                                                                    40
Appendix 9: Status of
Recommendations

  Recommendation             Status           Actions Required


Recommendations 3, 6     Resolved and      No further response to
      and 11             implemented.        OIG is required.

Recommendations 1, 2,   Resolved but not   These recommendations
   4, 5, 8, 9, and 10    implemented.       will be referred to the
                                            Assistant Secretary for
                                           Policy, Management and
                                           Budget for tracking and
                                                implementation.




 Recommendation 7         Unresolved       OIG will meet with BLM
                                                to resolve this
                                           recommendation before
                                              referring it to the
                                            Assistant Secretary for
                                           Policy, Management and
                                           Budget for tracking and
                                               implementation.




                                                                 41
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
